R. App. 1
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA
In Re: Oil Spill by the Oil
Rig “Deepwater Horizon”
in the Gulf of Mexico, on
April 20, 2010

*
*
*
*
*
*
*
*

MDL NO. 2179
SECTION J
HONORABLE
CARL J. BARBIER
Magistrate Judge
SHUSHAN

HESI PUNITIVE DAMAGES AND ASSIGNED
CLAIMS SETTLEMENT AGREEMENT
(AMENDED AS OF SEPTEMBER 2, 2015)
(Filed Sep. 4, 2015)
This Agreement, dated September 2, 2014, sets
forth the terms and conditions agreed upon by the
Parties for the settlement of this matter. The Parties
intend for this Settlement Agreement to be deemed
complete and fully enforceable as the final Settlement
Agreement (“SA”). This SA is intended by the Parties
to fully, finally, and forever settle and release the Released Claims against HESI, released subject to the
terms and conditions herein. The Parties recognize additional documents will be required in order to implement the SA. The Parties agree to work in good faith
to present to the Court all documents needed to implement the SA and agree that, in the absence of agreement by the Parties with respect to such documents,
the Court shall resolve disputes between the Parties
consistently with the terms of this SA.

R. App. 2
RECITALS
A. Halliburton Energy Services, Inc. and Halliburton Company (further defined as “HESI” in Section
1) are corporations organized under the laws of Delaware; HESI is a provider of services and products to
the energy industry.
B. Plaintiffs who are within the definition of
the New Class in Section 4, and the “DHEPDS Class,”
defined in Section 5, (collectively “Plaintiffs”) have
alleged and/or been assigned general maritime law
and other claims alleged against HESI relating to the
Deepwater Horizon Incident defined in Section 5, including negligence, gross negligence, willful misconduct, strict liability, negligence per se, nuisance,
trespass, and other claims.
C. Plaintiffs contend that they would prevail in
litigation. HESI disputes and denies the Plaintiffs’
claims, has raised various affirmative, legal and other
defenses, and contends that it would prevail in litigation.
D. After careful consideration, the DHEPDS
Class, as a juridical entity, DHEPDS Class Counsel,
and the PSC on behalf of members of the putative New
Class have concluded that it is in the best interests of
the DHEPDS Class and the members of the putative
New Class to compromise and settle certain claims asserted against HESI and other Halliburton Released
Parties, as defined in Section 5, in consideration of the
terms and benefits of the SA. After arm’s length negotiations with HESI and HESI’s counsel, the DHEPDS

R. App. 3
Class, DHEPDS Class Counsel, and the PSC on behalf
of the putative New Class, have considered, among
other things: (1) the complexity, expense, and likely
duration of the litigation; (2) the stage of the litigation
and amount of discovery and testimony completed;
(3) the potential for Plaintiffs or HESI prevailing on
the merits; and (4) the range of possible recovery and
certainty of damages; and have determined the SA is
fair, reasonable, adequate and in the best interests of
the DHEPDS Class and the members of the putative
New Class.
E. After careful consideration, HESI has concluded that it is in the best interests of HESI and all
Halliburton Released Parties to compromise and settle
certain claims asserted against them, in consideration
of the terms and benefits of the SA. After arm’s length
negotiations with the DHEPDS Class, DHEPDS Class
Counsel, and the PSC on behalf of the putative New
Class, HESI and HESI’s counsel have considered,
among other things: (1) the complexity, expense, and
likely duration of the litigation, including delays in litigation, and the risk of reversal of trial court rulings
on appeal; (2) the stage of the litigation and amount
of discovery and testimony completed; (3) the burdens
of litigation; (4) the potential for HESI or Plaintiffs
prevailing on the merits; and (5) the range of possible
recovery and certainty of damages; and have determined the SA is fair, reasonable, adequate and in the
best interests of HESI and the Halliburton Released
Parties.

R. App. 4
F. The Parties agree that this SA is subject to the
terms and conditions herein.
NOW THEREFORE, it is agreed that the foregoing recitals are hereby expressly incorporated into this
SA and made a part hereof and, further, that in consideration of the agreements, promises, representations
and warranties set forth in this SA; the benefits, payments, and releases described in this SA; the entry by
the Court of Final orders as described in Section 19;
and such other good and valuable consideration the receipt and sufficiency of which is hereby acknowledged,
the Released Claims shall be settled, compromised and
resolved as between HESI, the Halliburton Released
Parties, the DHEPDS Class, and the New Class under
and subject to the following terms and conditions:
TERMS AND CONDITIONS
1.

Parties.
The Parties to this SA are:
(a) Halliburton Energy Services, Inc., and Halliburton Company, including all subsidiaries,
all product service lines (e.g., Sperry Drilling
Services), predecessors, successors, assigns,
and HESI Affiliates (“HESI”);
(b) The Plaintiffs Steering Committee in MDL
2179 (“PSC”), on behalf of the members of a putative New Class, as defined in Section 4; and
(c) DHEPDS Class Counsel, on behalf of the
DHEPDS Class, as defined in Section 5.

R. App. 5
2.

Actions and Claims.
This SA sets forth the terms and conditions agreed
upon to settle and resolve:
(a) Punitive Damages Claims, as defined in Section 5, arising out of, due to, resulting from, or
relating in any way to, directly or indirectly,
the Deepwater Horizon Incident that the New
Class Members assert against HESI. As referenced and subject to the conditions herein, the
intent and purpose of this SA is that a putative class action (to be filed subsequent to execution of this SA), for settlement purposes
only, asserting Punitive Damages Claims
against HESI on behalf of the New Class as
defined in Section 4 (the “New Class Action”)
will be resolved by this SA, and certain Punitive Damages Claims made by and on behalf
of the New Class Members against HESI will
be resolved and dismissed with prejudice in
accordance with the terms of this SA.
(b) Assigned Claims, as defined in Section 5,
that the DHEPDS Class asserts against
HESI. As referenced and subject to the conditions herein, the intent and purpose of this SA
is that all Assigned Claims against HESI will
be resolved and dismissed with prejudice by
and on behalf of the DHEPDS Class in accordance with the terms of this SA.

3.

New Deepwater Horizon Punitive Damages
Settlement Class (“New Class”) Description.
It is the intent of the Parties to capture within the
New Class definition all potential claimants who

R. App. 6
are not excluded from the New Class in accordance
with Section 4(b) and who may have valid maritime law standing to make a Punitive Damages
Claim under general maritime law against HESI
arising out of, due to, resulting from, or relating in
any way to, directly or indirectly, the Deepwater
Horizon Incident. The Parties contemplate that
the New Class definition may be adjusted upon
agreement of and consistent with the intent of
the Parties, with approval of the Court, based
upon information made available to the Parties
after execution of this SA.
4.

New Deepwater Horizon Punitive Damages
Settlement Class (“New Class”) Definition.
(a) New Class Definition.
(1) All Natural Persons, businesses, trusts,
non-profits, or any other Entity who, anytime between April 20, 2010 through
April 18, 2012, owned, leased, rented, or
held any proprietary interest in Real
Property (a) alleged to have been touched
or physically damaged by oil, other hydrocarbons, or other substances from the
MC252 Well or the Deepwater Horizon
MODU and its appurtenances (including
the riser and blowout preventer), (b) alleged to have been touched or physically
damaged by substances used in connection with the Deepwater Horizon Incident, or (c) classified as having or having
had the presence of oil thereupon in
the database of the Deepwater Horizon

R. App. 7
Unified Command Shoreline Cleanup Assessment Team (“SCAT” database).
(2) All Natural Persons, businesses, trusts,
non-profits, or any other Entity who, anytime between April 20, 2010 through
April 18, 2012, owned, chartered, leased,
rented, or held any proprietary interest in
Personal Property located in Gulf Coast
Areas or Identified Gulf Waters, alleged
to have been touched or physically damaged by (a) oil, other hydrocarbons, or
other substances from the MC252 Well
or the Deepwater Horizon MODU and its
appurtenances (including the riser and
blowout preventer), or (b) substances
used in connection with the Deepwater
Horizon Incident.
(3) All Commercial Fishermen or Charterboat Operators who, anytime from April
20, 2009 through April 18, 2012, (a)
owned, chartered, leased, rented, managed, operated, utilized or held any proprietary interest in commercial fishing or
charter fishing Vessels that were Home
Ported in or that landed Seafood in the
Gulf Coast Areas, or (b) worked on or
shared an interest in catch from Vessels
that fished in Specified Gulf Waters and
landed Seafood in the Gulf Coast Area.
(4) All Natural Persons who, anytime between April 20, 2009 through April 18,
2012, fished or hunted in the Identified
Gulf Waters or Gulf Coast Areas to

R. App. 8
harvest, catch, barter, consume or trade
natural resources including Seafood and
game, in a traditional or customary manner, to sustain basic family dietary, economic security, shelter, tool, or clothing
needs.
(b) New Class Exclusions.
Excluded from the New Class are the following:
(1) Any New Class Member who timely and
properly elects to opt out of the New Class
under the procedures established by the
Court;
(2) Defendants in MDL 2179, and individuals who are current employees of HESI,
or who were employees of HESI during
the Class Period;
(3) The Court, including any sitting judges
on the United States District Court for
the Eastern District of Louisiana, their
law clerks serving during the pendency of
MDL 2179, and any immediate family
members of any such judge or law clerk;
(4) Governmental Organizations as defined
in Section 5;
(5) Any Natural Person or Entity who or that
made a claim to the GCCF, was paid, and
executed a valid GCCF Release and Covenant Not to Sue, provided, however, that
a GCCF Release and Covenant Not to Sue
covering only Bodily Injury Claims shall

R. App. 9
not be the basis for exclusion of a Natural
Person;
(6) BP Released Parties and individuals who
were employees of BP Released Parties
during the Class Period; and
(7) Transocean and individuals who were
employees of Transocean during the
Class Period.
This SA does not recognize or release any Bodily
Injury Claims of any New Class Members.
5.

Definitions.
For purposes of this SA, terms with initial capital
letters have the meanings set forth below:
(a)

Administrative Costs means all costs associated with the implementation and administration of the notice, allocation and claims
processes contemplated by this SA, including
without limitation, court approved compensation and costs of special masters, and/or
Claims Administrator, including but not limited to its vendors, experts and legal counsel,
if any, costs of the Notice Program(s), costs of
implementing and administering the New
Class claims process, costs of establishing
the Settlement Fund, costs of distributing
Settlement Benefits, costs associated with
the establishment and operation of the Settlement Fund, including but not limited to
the escrow agent and/or trustee, any directed
escrow agent and/or trustee, and any paying
agent, and including all Taxes on monies
held in the Settlement Fund, and all other

R. App. 10
costs and compensation associated with the
implementation and administration of this
SA. Administrative Costs do not include
costs HESI incurs to analyze New Class Opt
Out forms. HESI acknowledges that BP,
DHEPDS Class Counsel and New Class
Counsel have agreed on the proper determination of Administrative Costs as set out in
the HESI Settlement Administrative Cost
Addendum to HESI Settlement Agreement,
included as Attachment E.
(b)

Affiliate means, with respect to any Natural
Person or Entity, any other Natural Person
or Entity that, directly or indirectly, through
one or more intermediaries, controls or is
controlled by, or has the power to control or
be controlled by, or is under common control
or common ownership with, such Natural
Person or Entity.

(c)

Allocation Neutral means the special master
or U.S. Magistrate Judge appointed by the
Court to allocate the Aggregate Payment described in Section 6 between the New Class
and the DHEPDS Class subject to the terms
and conditions set forth in this SA.

(d)

Assigned Claims means all of the claims defined in Section 1.1.3 of Exhibit 21 to the
DHEPDS, but does not include the “Retained
Claims” defined in Section 1.1.4 of Exhibit 21
to the DHEPDS.

(e)

Assignment means the assignment of claims
made through Exhibit 21 to the DHEPDS.

R. App. 11
(f )

Bodily Injury Claims means claims for actual damages or Punitive Damages, including lost wages, for or resulting from personal
injury, latent personal injury, future personal
injury, progression of existing personal injury, disease, death, fear of disease or personal injury or death, mental or physical
pain or suffering, or emotional or mental
harm, anguish or loss of enjoyment of life, including any claim for mental health injury,
arising out of, due to, resulting from, or relating in any way to, directly or indirectly, the
Deepwater Horizon Incident.

(g)

BP means BP Exploration & Production Inc.
and BP America Production Company.

(h)

BP Released Parties means the Released
Parties described in Section 10.3 of and Exhibit 20 to the DHEPDS.

(i)

Charterboat Operators means owners, captains and deckhands of charter fishing vessels that carry passengers(s) for hire to
engage in recreational fishing.

(j)

Claims Administrator means the claims administrator appointed by the Court to oversee the Claims Program for the New Class.

(k)

Claims Program means the Court-supervised claims program developed to distribute
Settlement Benefits to the New Class as described in Section 8.

(l)

Class Period means April 20, 2010 until April
18, 2012.

R. App. 12
(m)

Commercial Fisherman means a Natural
Person or Entity that derives income from
catching Seafood and selling Seafood, which
shall include Vessel owners, boat captains,
boat crew, boat hands, and others who are
paid based on the quantity of Seafood lawfully caught while holding a commercial fishing license issued by the United States
and/or the State(s) of Alabama, Florida, Louisiana, Mississippi and/or Texas, or otherwise engaged in lawful commercial fishing.

(n)

Court means the United States District
Court for the Eastern District of Louisiana,
in In re: Oil Spill by the Oil Rig “Deepwater
Horizon” in the Gulf of Mexico, on April 20,
2010, MDL No. 2179, Judge Carl Barbier,
presiding.

(o)

Deepwater Horizon Incident means the
events, actions, inactions and omissions leading up to and including (i) the blowout of the
MC252 Well; (ii) design, planning, preparation or drilling of the MC252 Well; (iii) the
explosions and fire on board the Deepwater
Horizon on or about April 20, 2010; (iv) the
sinking of the Deepwater Horizon on or about
April 22, 2010; (v) efforts to control the
MC252 well; (vi) the release of oil, other hydrocarbons and other substances from the
MC252 Well and/or the Deepwater Horizon
rig and its appurtenances; (vii) the efforts
to contain the MC252 Well; (viii) Response
Activities, including the VoO program; and
(ix) any damages to the MC252 Well, any
reservoir, aquifer, geological formation, or

R. App. 13
underground strata related to the foregoing;
and (x) the subsequent clean up and remediation efforts and all other responsive actions
taken in connection with the blowout of the
MC252 Well.
(p)

DHEPDS means the Deepwater Horizon Economic and Property Damages Settlement
Agreement as Amended on May 2, 2012.

(q)

DHEPDS Claims Administrator means the
“Claims Administrator” defined in Section
38.21 of the DHEPDS.

(r)

DHEPDS Class means the Deepwater Horizon
Economic and Property Damages Settlement
Class defined in the DHEPDS, preliminarily
certified in May of 2012, and formally certified by the Court on December 21, 2012.

(s)

DHEPDS Class Counsel means the DHEPDS
Class Counsel appointed by the Court.

(t)

DHEPDS Class Members means all such
Natural Persons or Entities who are members of the DHEPDS Class and did not
timely and properly opt out of the DHEPDS
Class.

(u)

DHEPDS Effective Date means the “Effective Date” of the DHEPDS as defined in Section 38.62 of the DHEPDS.

(v)

DHEPDS Settlement Program means the
Deepwater Horizon Court Supervised Settlement Program defined in Section 38.41 of the
DHEPDS.

R. App. 14
(w)

Distribution Model means the distribution
model developed by the Claims Administrator for the New Class and described in Section 8.

(x)

Effective Date means the “Effective Date” of
this SA, as described in Section 20.

(y)

Entity means an organization, business,
Local Government, or entity, other than a
Governmental Organization, operating or
having operated for profit or not-for-profit,
including without limitation, a partnership,
corporation, limited liability company, association, joint stock company, trust, joint venture or unincorporated association of any
kind or description.

(z)

Final, with respect to any order of the Court,
means an order for which either of the following has occurred: (1) the day following the
expiration of the deadline for appealing the
entry of the order, if no appeal is filed, or (2)
if an appeal of the order is filed, the date
upon which all appellate courts with jurisdiction (including the United States Supreme Court by petition for writ of certiorari)
affirm such order, or deny any such appeal or
petition for writ of certiorari, such that no future appeal is possible.

(aa)

Finfish means fish other than shellfish and
octopuses.

(bb)

GCCF means the Gulf Coast Claims Facility.

R. App. 15
(cc)

GCCF Release and Covenant Not to Sue
means the release executed in exchange for
payment of a GCCF claim.

(dd)

Governmental Organization means: (i) the
government of the United States of America;
(ii) the state governments of Texas, Louisiana, Mississippi, Alabama, and Florida (including any agency, branch, commission,
department, unit, district or board of the
state); and (iii) officers or agents of the U.S.,
states, and/or Indian tribes appointed as
“Natural Resource Damages Trustees” pursuant to the Oil Pollution Act of 1990 as a
result of the Deepwater Horizon Incident.
Governmental Organization does not include
any Local Government.

(ee)

Gulf Coast Areas means the States of Louisiana, Mississippi, and Alabama; the counties
of Chambers, Galveston, Jefferson and Orange in the State of Texas; and the counties
of Bay, Calhoun, Charlotte, Citrus, Collier,
Dixie, Escambia, Franklin, Gadsden, Gulf,
Hernando, Hillsborough, Holmes, Jackson,
Jefferson, Lee, Leon, Levy, Liberty, Manatee,
Monroe, Okaloosa, Pasco, Pinellas, Santa
Rosa, Sarasota, Taylor, Wakulla, Walton and
Washington in the State of Florida, including
all adjacent Gulf waters, bays, estuaries,
straits, and other tidal or brackish waters
within the States of Louisiana, Mississippi,
Alabama or those described counties of Texas
or Florida.

R. App. 16
(ff )

Halliburton Released Parties means HESI,
Halliburton Company and their subsidiary
companies, and any past, present and future
HESI Affiliates, and each of their respective
business units, divisions, product service
lines (e.g., Sperry Drilling Services), predecessors, and successors, and each of their
respective insurers, agents, servants, representatives, officers, directors (or Natural
Persons performing similar functions), employees, attorneys and administrators, all
and only in their capacities as such. Future
HESI Affiliates expressly does not include
any Entity created by or resulting from a
merger with a Transocean Entity or a BP Entity, or acquisition of an ownership interest
among any of the same.

(gg)

HESI Affiliate means with respect to HESI,
any other Natural Person or Entity that, directly or indirectly, through one or more intermediaries, controls or is controlled by, or
has the power to control or be controlled by,
or is under common control or common ownership with HESI. HESI Affiliate includes
“Halliburton Parties” as defined in Exhibit
21, Section 2.7, to the DHEPDS. HESI Affiliate expressly does not include any Natural
Person or Entity that is directly or indirectly
controlled by or under common control or
ownership by BP or Transocean or any other
party that is a defendant in MDL 2179 and
was not a HESI Affiliate prior to or as of the
date of the SA.

R. App. 17
(hh)

Home Ported means the home port of a vessel as documented by a 2009 or 2010 government-issued vessel registration.

(ii)

Identified Gulf Waters means the United
States and state territorial waters of the
Gulf of Mexico and all adjacent bays, estuaries, straits, and other tidal or brackish waters within the territory of the States of
Louisiana, Mississippi, and Alabama and the
Texas and Florida counties listed in the definition of Gulf Coast Areas, and which are
shown on the map attached as Attachment
D.

(jj)

Local Government means a county, parish,
municipality, city, town, or village (including
any agency, branch, commission, department, unit, district or board of such Local
Government).

(kk)

MC252 Well means the exploratory well
named “Macondo” that was drilled by the
Transocean Marianas and Deepwater Horizon
rigs in Mississippi Canyon, Block 252 on the
outer continental shelf in the Gulf of Mexico.

(ll)

Natural Person means a human being, and
shall include the estate of a human being
who died on or after April 20, 2010.

(mm) New Class means the New Class defined in
Section 4.
(nn)

New Class Counsel means the class counsel
appointed by the Court to represent the New
Class.

R. App. 18
(oo)

New Class Members means all such Natural
Persons or Entities who or that satisfy the
requirements for membership in the New
Class and do not timely and properly opt out
of the New Class.

(pp)

Notice Program means any and all notice to
New Class Members or DHEPDS Class
Members ordered by the Court in relation to
this SA, including any reminder notices and
termination notices.

(qq)

Opt Outs means those Natural Persons and
Entities included in the New Class Definition who timely and properly exercise their
rights to opt out of the New Class and are
therefore not members of the New Class.

(rr)

Oyster Beds means oyster beds located in
Identified Gulf Waters that were closed for
fishing or harvesting by a federal, state, or
local government authority due to or as a result of the Deepwater Horizon Incident, or
oyster beds located in the Identified Gulf
Waters that were touched by (i) oil, other
hydrocarbons, or other substances from
the MC252 Well or the Deepwater Horizon
MODU and its appurtenances (including the
riser and blowout preventer), or (ii) substances used in connection with the Deepwater Horizon Incident.

(ss)

Personal Property means any form of tangible property that is not Real Property, including Vessels.

R. App. 19
(tt)

Property means Real Property and Personal
Property.

(uu)

Punitive Damages means any and all punitive, exemplary, or multiple damages and
any and all costs or fees incurred or awarded
in connection with asserting a claim for such
damages. Punitive Damages do not include
any claims for civil or criminal penalties or
fines imposed by any governmental authority.

(vv)

Punitive Damages Claims means any claim,
counterclaim, cross-claim, demand, charge,
dispute, controversy, action, cause of action,
suit, proceeding, arbitration, alternative
dispute resolution, inquiry, investigation or
notice, whether of a civil, administrative,
investigative, private or other nature, and
whether pending, threatened, present or initiated in the future, and whether known or
unknown, suspected or unsuspected, under
any current or future local, state, federal, foreign, tribal, supranational or international
law, regulation, equitable principle, contract
or otherwise, for Punitive Damages whether
brought directly, by subrogation, by assignment or otherwise.

(ww) Real Property means all real property adjacent to Identified Gulf Waters, including
property below the surface of the water, Oyster Beds, and deeded docks.
(xx)

Released Claims means the “New Class Released Claims” described in Section 10(a)
and set forth in the New Class Release of

R. App. 20
HESI attached as Attachment A, and the
claims released by the DHEPDS Class, described in Section 10(b), and set forth in the
Assigned Claims Release of HESI attached
as Attachment B. Released Claims do not include any “New Class Expressly Reserved
Claims,” in the New Class Release of HESI
attached as Attachment A, or any claims expressly reserved in the Assigned Claims Release of HESI attached as Attachment B.
(yy)

Response Activities means the clean-up, remediation efforts, and all other responsive
actions (including the use and handling of
dispersants) relating to the releases of oil,
other hydrocarbons and other pollutants
from the MC252 Well and/or the Deepwater
Horizon and its appurtenances, and the Deepwater Horizon Incident.

(zz)

Seafood means fish and shellfish, including
shrimp, oysters, crab, menhaden, and Finfish, caught in the Specified Gulf Waters or
Identified Gulf Waters.

(aaa) Specified Gulf Waters means the United
States and state territorial waters of the
Gulf of Mexico where residents of Gulf Coast
Areas are allowed to lawfully fish, under a
United States or state-issued permit or otherwise, and all adjacent bays, estuaries,
straits, and other tidal or brackish waters
within the territory of the States of Louisiana, Mississippi, and Alabama and the Texas
and Florida counties listed in the definition

R. App. 21
Gulf Coast Areas, and which are shown on
the map attached as Attachment D.
(bbb) Taxes means all federal, state, local and/or
foreign taxes of any kind on any income
earned by or with respect to the Settlement
Fund, or any other funds associated with
the settlement of this matter, including the
expenses and costs of tax attorneys and accountants retained by New Class Counsel,
DHEPDS Counsel or the escrow agent of the
Settlement Fund.
(ccc)

Transocean means Transocean Ltd., Transocean, Inc., Transocean Offshore Deepwater
Drilling Inc., Transocean Deepwater Inc.,
Transocean Holdings LLC, and Triton Asset
Leasing GmbH and all and any of their Affiliates, other than any Natural Person or Entity that is also an Affiliate of any of the BP
Released Parties as of April 16, 2012.

(ddd) Transocean Settlement means the Transocean Punitive Damages and Assigned
Claims Settlement Agreement (Rec. Doc. No.
14644-1) as may be amended from time to
time.
(eee) Vessel means every description of watercraft
or other artificial contrivance used, or capable of being used, as a means of transportation on water.
(fff )

VoO means Vessels of Opportunity, the program through which BP, or its contractors,
contracted with vessel owners to assist in

R. App. 22
Deepwater Horizon Incident Response Activities.
6.

Settlement Benefits.
Subject to the terms and conditions set forth
herein, HESI shall provide the following “Settlement Benefits” in connection with the resolution of
the New Class Action by the New Class and the
resolution of the Assigned Claims against HESI by
the DHEPDS Class:
(a) HESI shall make an Aggregate Payment of
one billion twenty-eight million U.S. dollars (“USD”) ($1,028,000,000) (the “Aggregate
Payment”) to resolve both the alleged liability to the New Class for Punitive Damages
Claims, if any, and the alleged liability to the
DHEPDS Class for the Assigned Claims
against HESI under the DHEPDS. DHEPDS
Class Counsel and the PSC have agreed to accept the Aggregate Payment from HESI, subject to the terms and conditions set forth
herein, including the allocation of the Aggregate Payment by the Allocation Neutral described below.
(b) All Administrative Costs shall be paid from
the Aggregate Payment. Under no circumstances shall HESI be liable for any Administrative Costs. At the request of the PSC or
New Class Counsel, as applicable, and/or the
DHEPDS Class Counsel, HESI agrees to
consult with them to explore methods to
enhance the efficiency of the implementation and administration of the processes for

R. App. 23
the distribution of the Aggregate Payment
amount pursuant to the provisions of the SA.
(c) Only as agreed to by the Parties in Section
23 of this SA, HESI shall pay the reasonable common benefit costs and fees of the
PSC, New Class Counsel, as applicable, and
DHEPDS Class Counsel and/or other common
benefit attorneys who have submitted time
and/or costs in accordance with Pre-Trial Order No. 9, as may be approved by the Court.
In no event shall HESI be required to pay
any common benefit costs or fees of the PSC,
New Class Counsel, DHEPDS Class Counsel
or any other common benefit attorneys, or
any other person who claims a right to fees
and costs, in excess of the amount agreed to
by the Parties in Section 23 of this SA.
7.

Allocation of Settlement Benefits by the Allocation Neutral.
(a) An Allocation Neutral shall be appointed by
the Court, and such Allocation Neutral shall
allocate the Aggregate Payment between the
New Class and the DHEPDS Class with finality, subject to the terms of this SA and
the Court’s determination that the Allocation Neutral appropriately performed the assigned function. The Parties may not cancel or
terminate the SA based on the Allocation
Neutral’s allocation. HESI shall not have any
responsibility or liability whatsoever for, the
allocation of the Aggregate Payment.

R. App. 24
(b) The Allocation Neutral shall have the ability
to communicate, ex parte or otherwise, with
and obtain information from the Parties in
furtherance of his/her assigned function. All
communications between and among the Allocation Neutral and the Parties shall be
treated and considered by the Parties as confidential, privileged and otherwise protected
by Federal Rule of Evidence 408. The Parties
shall request the Court to instruct the Allocation Neutral to treat and consider all such
communications as confidential, privileged
and otherwise protected by Federal Rule of
Evidence 408.
(c) The Allocation Neutral may also communicate ex parte or otherwise, with nonparties to
obtain information as he/she deems appropriate. The Parties shall treat and consider all
communications between and among the Allocation Neutral and any nonparty as confidential, privileged and otherwise protected by
Federal Rule of Evidence 408. The Parties
shall request the Court to instruct the Allocation Neutral to treat and consider all such
communications as confidential, privileged
and otherwise protected by Federal Rule of
Evidence 408.
(d) The Allocation Neutral’s appointment shall
terminate on the date that an order of the
Court approving the allocation of the Aggregate Payment becomes Final.

R. App. 25
(e) The Allocation Neutral shall file his/her final
recommendation as soon as practicable or in a
timeframe established by the Court.
(f ) Use of Allocation Materials. The New Class,
New Class Members, PSC, New Class Counsel, DHEPDS Class, DHEPDS Class Counsel,
and HESI, each agree, represent, and warrant
that all documents and communications relating to the Allocation Neutral’s development of
the allocation shall (i) be kept confidential,
subject to valid legal process; (ii) not be used
by them for any purpose other than the allocation; and (iii) be inadmissible and not used
in any litigation, arbitration, mediation, settlement discussions, or other communications
or procedures. Such confidential and protected documents and communications relating to the Allocation Neutral’s development of
the allocation shall include, but shall not be
limited to, any and all material relating to
the use of the DHEPDS Settlement Program
to process claims of New Class Members or
DHEPDS Class Members for purposes of allocating the Aggregate Payment or distributing
Settlement Benefits. No calculation or conclusions generated during the allocation process
shall be binding on any party, nor shall they
be used in relation to the validity or amount
of any claims for damages, loss, or injury arising out of, due to, resulting from, or relating
in any way to, directly or indirectly, the Deepwater Horizon Incident, whether asserted in
litigation, arbitration, mediation, settlement
discussions, or other communication or proceedings.

R. App. 26
8.

Distribution of Settlement Benefits.
(a) Establishment of a Court-Supervised Claims
Program for the New Class. Subject to the
terms and conditions herein, the PSC or New
Class Counsel, as applicable, shall make arrangements to establish a Court-supervised
claims program for the New Class. A Claims
Administrator appointed by the Court shall
develop a Distribution Model for the Courtsupervised Claims Program. The Distribution
Model may be included in the notice of this SA
to the New Class under the Notice Program,
or may be developed after Court approval of
this SA and/or certification of the New Class,
as the Court directs. The PSC or New Class
Counsel, as applicable, will consult with HESI
on the Claims Program, including on issues
such as periodic reporting to HESI by the
Claims Administrator of summary claims
data and receipt of electronic copies of executed Individual Releases. HESI shall be entitled to standard reports of claims data. If
HESI requests additional information, such
as paper copies of Individual Releases, HESI
shall be responsible for the costs of generating
such information. If any dispute with HESI
arises with respect to the Claims Program,
the Court will resolve the matter consistently
with the terms of this SA. The PSC or New
Class Counsel, as applicable, will recommend
to the Court a person to serve as the Claims
Administrator, subject to Court approval. In
the absence of HESI’s agreement, the Court
shall select the Claims Administrator. The
Claims Program will treat all claims on a fair

R. App. 27
and transparent basis. The Claims Program
for the New Class is intended to distribute
funds remaining from the portion of the Aggregate Payment allocated to the New Class
after relevant Administrative Costs have
been paid. The plan for distribution of payments to the New Class recommended by the
Claims Administrator may, at his/her discretion, include a standard to establish a claim
for Real Property damage, a standard to establish a claim for Personal Property damage,
including Vessel damage, a standard to establish a claim for commercial fishing loss, a
standard to establish a claim for charter fishing loss, a standard to establish a claim for
subsistence loss, and other standards as necessary to distribute the New Class Funds.
Prior to distribution of any New Class Funds,
the Effective Date must have occurred and
the Distribution Model must be approved by a
Final order of the Court. HESI shall not have
any responsibility or liability whatsoever for,
the distribution or method of distribution of
the Aggregate Payment.
(b) Distribution of Settlement Benefits for the
DHEPDS Class. The occurrence of the Effective Date is a condition precedent to distribution of any funds to the DHEPDS Class. After
the Effective Date, the portion of the Aggregate Payment allocated to the DHEPDS Class,
minus any relevant previously-incurred Administrative Costs will be placed in a subfund of the Settlement Fund created for the
DHEPDS Class subject to further order of the
Court as described in Section 9.

R. App. 28
(c) Administrative Costs. The Court will order
disbursements of funds from the Aggregate
Payment as needed to cover Administrative
Costs. Funds may be disbursed to cover Administrative Costs beginning as soon as the
first payment described in Section 9(a)(ii) is
made into the Settlement Fund described in
Section 9.
(d) Timing of Distributions to New Class Members and DHEPDS Class. After the Effective
Date, distributions of the New Class Funds
shall occur as soon as practicable, or in a
timeframe ordered by the Court, consistently
with the terms and conditions of this SA. After
the Effective Date, a Final order approving
the Distribution Model for the New Class is a
condition precedent to distribution of any
funds to the New Class Members, but does not
affect the timing of any distribution to the
DHEPDS Class. After the Effective Date, any
order with respect to distribution of funds allocated to the DHEPDS Class is not a condition precedent to and does not affect the
timing of any distribution to the New Class.
(e) Appeal. In developing the Court Supervised
Claims Program for the New Class, the
Claims Administrator shall establish rules for
appealing the determinations of the Claims
Administrator to the Court. The Court’s decision on any such appeal involving the amount
of any payment to any individual claimant
(other than a determination that a claimant is
not entitled to any payment due to a failure to
meet the class definition) shall be final and

R. App. 29
binding, and there shall be no appeal to any
other court including the U.S. Court of Appeals for the Fifth Circuit.
9.

Administration and Funding of Settlement
Benefits.
(a) Provision of Aggregate Payment. HESI shall
provide the Aggregate Payment as follows:
i.

The Aggregate Payment shall be placed
in an escrow account governed by a Court
approved Escrow Agreement (the “Settlement Fund”). The Settlement Fund, including all accounts and subaccounts
thereof, shall be treated as (i) a “qualified
settlement fund” within the meaning of
Treas. Reg. § 1.468B-1, et seq., and (ii) a
qualified settlement fund or other analogous fund described in any other applicable local, state or foreign law (as
described in (i) or (ii), a “QSF”). The escrow agent of the Settlement Fund shall
be the administrator of the QSF pursuant
to Treas. Reg. § 1.468B-2(k)(3) and any
other applicable law. The Parties shall cooperate and take all steps necessary for
establishing and treating the Settlement
Fund as a QSF and, to the fullest extent
permitted by applicable law, shall not
take a position (nor permit an agent to
take a position) in any filing or before any
tax authority inconsistent with such
treatment. The Parties agree to treat the
Settlement Fund as a QSF from the earliest possible date, including through the

R. App. 30
making of a “relation back” election as
described in Treas. Reg. § 1.468B-1(j)(2)
with respect to the Settlement Fund and
any analogous election under other applicable law.
ii.

HESI shall pay into the Settlement Fund
$ 361,333,334 (USD) of the Aggregate
Payment within 30 calendar days of the
filing of this SA with the Court. HESI
shall pay into the Settlement Fund
$333,333,333 (USD) of the Aggregate
Payment within one year of the filing of
this SA with the Court. HESI shall pay
into the Settlement Fund $333,333,333
(USD) of the Aggregate Payment within
two years of filing of this SA with the
Court.

iii. The PSC or New Class Counsel, as applicable, and DHEPDS Class Counsel, in
consultation with HESI, will recommend
an escrow agent for appointment by the
Court to maintain and oversee the Settlement Fund, and if any dispute with HESI
arises with respect to the appointment of
the escrow agent, the Court will resolve
the matter consistently with the terms of
this SA. The PSC or New Class Counsel,
as applicable, and DHEPDS Class Counsel, in consultation with HESI, shall define the scope and responsibilities of the
escrow agent of the Settlement Fund. If
any dispute with HESI arises with respect to the scope and responsibilities of
the escrow agent, the Court will resolve

R. App. 31
the matter consistently with the terms of
this SA.
iv. Except for approved Administrative Costs,
already disbursed from the Settlement
Fund, the Aggregate Payment shall be
held in the Settlement Fund (which includes sub-funds of the Settlement Fund
established consistent with the terms and
conditions of this SA and any applicable
Court order). Upon the Effective Date, all
income earned on money held in the Settlement Fund, net of Taxes, shall belong
to the New Class and the DHEPDS Class,
proportionally based on the allocation of
the Aggregate Payment by the Allocation
Neutral. The Aggregate Payment shall remain in the Settlement Fund until distribution, as provided in Sections 8(b), 8(d),
and 9(b).
v.

The Settlement Fund escrow agent shall
invest any funds in the Settlement Fund
in: (1) United States Treasuries: (2) United
States government money market funds
having a AAA/Aaa rating awarded by
at least two of the three major rating
agencies (Standard & Poor’s, Moody’s or
Fitch); (3) Interest bearing deposits at
federally insured depository institutions
that are at all times rated A+/A1 or
higher by Standard & Poor’s and Moody’s
provided such depository institution rated
A+/A1 or higher; or (4) as agreed by the
Parties, and shall collect and reinvest all
interest accrued thereon, except that any

R. App. 32
residual cash balances of less than
$100,000.00 may be invested in money
market mutual funds comprised exclusively of investments secured by the full
faith and credit of the United States. In
the event that the funds in the Settlement Fund are invested in United States
Treasuries and the yield on the United
States Treasuries is negative, in lieu of
purchasing such Treasuries, all or any
portion of the funds held by the Settlement Fund may be deposited in a noninterest bearing account in a federally insured depository institution, as described
above. No risk related to the investment
of the Aggregate Payment in the Settlement Fund shall be borne by HESI. All
Taxes arising with respect to income
earned by the Settlement Fund shall be
paid out of the Settlement Fund, and
shall be timely paid by the Settlement
Fund escrow agent. Any tax returns prepared for the Settlement Fund (as well as
the election set forth therein) shall be
consistent with its status as a QSF and in
all events shall reflect that all Taxes (including any interest or penalties) on the
income earned by the Settlement Fund
shall be paid out of the Settlement Fund
as provided herein.
vi. The Settlement Fund shall indemnify
HESI for all Taxes imposed on the income
earned by or with respect to the Settlement Fund. Without limiting the foregoing, from the Settlement Fund, the

R. App. 33
Settlement Fund escrow agent shall reimburse HESI for any such Taxes to the
extent they are imposed on or paid by
HESI.
vii. HESI shall have no responsibility for or
involvement in maintaining or investing
the Aggregate Payment or the funds in
the Settlement Fund or for the establishment or maintenance of the Settlement
Fund, for the payment of Taxes, or for the
distribution of the Settlement Fund or
the administration of the SA.
(b) Consistent with Section 8 above, after the
Effective Date and subject to further order of
the Court, the escrow agent of the Settlement
fund will establish or cause to be established
a sub-fund of the Settlement Fund to hold the
funds allocated to the New Class and income
earned on the funds, net of Taxes, allocated to
the New Class (the “New Class Sub-Fund”)
and a sub-fund of the Settlement Fund to hold
funds allocated to the DHEPDS Class and income earned on the funds, net of Taxes, allocated to the DHEPDS Class (the “DHEPDS
Class Sub-Fund”), both of which shall form
part of the Settlement Fund. All income
earned on funds, net of Taxes, and held in the
New Class Sub-Fund shall become part of the
New Class Sub-Fund and belong to the New
Class. All income earned on funds, net of
Taxes, and held in the DHEPDS Class SubFund shall become part of the DHEPDS Class
Sub-Fund and belong to the DHEPDS Class.
Subject to further order of the Court, after

R. App. 34
funds are placed in these sub-funds, any remaining Administrative Costs related to the
DHEPDS Class will be paid either from the
DHEPDS Class Sub-Fund or as part of the
claims administration of the DHEPDS as directed by the Court, and the remaining Administrative Costs related to implementation
of this SA with respect to the New Class will
be paid from the New Class Sub-Fund. After
the Effective Date of this SA and the effective
date of the Transocean Settlement, the escrow
agent of the Settlement Fund at the direction
of the New Class Claims Administrator, may
merge the New Class Sub-Fund with the comparable new class sub-fund created under the
Transocean Settlement and the escrow agent
of the Settlement Fund at the direction of the
DHEPDS Claims Administrator may merge
the DHEPDS Sub-Fund with the comparable
DHEPDS sub-fund created under the Transocean Settlement. At the direction of the
DHEPDS Claims Administrator, and by order
of the Court, funds may be transferred from
the DHEPDS Sub-Fund into the existing
DHEPDS trust created through the DHEPDS
Settlement Program for distribution to members of the DHEPDS Class.
10. Release of Claims.
(a) Release of Specified New Class Punitive Damages Claims. The New Class Members defined
in Section 4 shall release and forever discharge, with prejudice, New Class Released
Claims, as defined in the New Class Release
of HESI (Attachment A to this SA), against

R. App. 35
the HESI Released Parties upon the Effective
Date of this SA.
(b) Release of Claims against HESI by DHEPDS
Class. The DHEPDS Class shall release and
forever discharge, with prejudice, Assigned
Claims against the Halliburton Released Parties upon the Effective Date of this SA. These
Assigned Claims are further defined as part of
Exhibit 21 to the DHEPDS Agreement, and
are intended to be all Assigned Claims
against the Halliburton Released Parties. The
release of Assigned Claims against the Halliburton Released Parties by the DHEPDS
Class is not intended to be, and shall not operate as, a release of any individual claim of
any DHEPDS Class Member except to the extent that any DHEPDS Class Member has asserted or attempts to assert an individual
right to pursue any of the Assigned Claims,
and does not in any way affect the “Expressly
Reserved Claims” defined in Sections 3 and
38.67 of the DHPEDS, which continue to be
expressly reserved to the DHEPDS Class
Members. The DHEPDS Class, upon the Effective Date of this SA, shall release any
claims against the Halliburton Released Parties for acts or omissions of any Court-appointed neutral party in disbursement of
Settlement Benefits under this SA, the Allocation Neutral, or the escrow agent of the Settlement Fund. The release of Assigned Claims
against the Halliburton Released Parties is
not intended to and does not operate as a release of any Assigned Claims against Transocean.

R. App. 36
(c) Release. The “New Class Release of HESI”
and the “Assigned Claims Release of HESI”
set forth and describe in greater detail the
Released Claims and are attached as Attachments A and B, respectively. In the event of a
conflict between the New Class Release of
HESI or the Assigned Claims Release of HESI
and this Section 10, the New Class Release of
HESI or the Assigned Claims Release of
HESI, as the case may be, shall control.
(d) Individual Release. If a New Class Member
submits one or more claims and qualifies for a
payment under the terms of the SA then, prior
to, and as a precondition to, receiving any payment on a claim, the New Class Member shall
execute an “Individual Release” in the form
attached as Attachment A-1. An Individual
Release may not be signed by any form of electronic signature, but must be signed by a
handwritten signature. An electronic signature is insufficient. The Parties contemplate
that they may, to the extent allowed by law,
subsequently agree to include Individual Release language on claim payment checks to
New Class Members. In the event the Parties
agree in writing to such language and include such language on claim payment
checks to New Class Members, HESI agrees
to waive the requirement of an executed Individual Release in the form attached as Attachment A-1.

R. App. 37
11. Attachments.
Any attachments to this SA are incorporated by
reference as if fully set forth herein.
12. Entire Agreement.
This SA, its attachments, and the confidential Opt
Out thresholds filed with the Court in camera,
contains the entire agreement between the Parties
concerning the subject matter thereof and supersedes and cancels all previous agreements, negotiations, and commitments, whether oral or in
writing, with respect to the subject matter of this
SA. This SA may be amended from time to time
only by written agreement of the Parties, subject
to Court approval.
13. Additional Documentation.
The Parties recognize additional documents will
be required in order to implement the SA, and
agree to be bound by the terms set forth in the introductory paragraph of this SA with respect to
such additional documentation. However, the Parties agree that this SA contains all of the essential
terms necessary for a full, final, binding and enforceable Settlement Agreement between the Parties.
14. No Admission of Liability.
The PSC, New Class, New Class Members,
DHEPDS Class, DHEPDS Class Members, DHEPDS
Class Counsel, and HESI agree that the negotiation and execution of this SA, or any payments
made thereunder, are to compromise disputed
claims and are not an admission of wrongdoing,

R. App. 38
non-compliance, or liability. HESI denies all allegations of any wrongdoing, fault, noncompliance,
liability; denies that it acted improperly in any
way; and denies that it caused any damage or loss
arising out of, due to, resulting from, or relating in
any way to, directly or indirectly, the Deepwater
Horizon Incident. Regardless of whether the SA is
approved in any form by the Court, not consummated for any reason, or otherwise terminated or
canceled, this SA and all documents related to the
SA (and all negotiations, discussions, statements,
acts, or proceedings in connection therewith) shall
not be:
(a) offered or received against any Party as
evidence of, or construed as or deemed to
be evidence of, any presumption, concession, or admission by any Party with respect to the truth of any fact alleged or
the validity of any claim that was or could
have been asserted against HESI or any
other Halliburton Released Party arising
out of, due to, resulting from, or relating
in any way to, directly or indirectly, the
Deepwater Horizon Incident, or of any liability, negligence, recklessness, fault, or
wrongdoing of BEST or any other Halliburton Released Party;
(b) offered or received against any Party as
any evidence, presumption, concession, or
admission with respect to any fault, misrepresentation, or omission with respect
to any statement or written document approved or made by HESI or any other
Halliburton Released Party;

R. App. 39
(c) offered or received against any Party or
as any evidence, presumption, concession,
or admission with respect to any liability,
negligence, recklessness, fault, or wrongdoing, or in any way referred to for any
other reason as against HESI or any
other Halliburton Released Party in any
civil, criminal, or administrative action or
proceeding, other than such proceedings
as may be necessary to effectuate the provisions of this SA; provided, however, that
if this SA is approved by the Court, HESI,
the DHEPDS Class, the New Class, and
any New Class Member may refer to it to
effectuate the protections granted them
hereunder or otherwise to enforce the
terms of the SA; or
(d) construed against any Party as an admission, concession, or presumption that the
consideration to be given hereunder represents the amount that could be or
would have been recovered after trial.
15. Approval.
(a) The Parties agree to take all actions reasonably necessary for preliminary and final
approval of the SA, and approval of the additional documents described in Section 13.
(b) The Parties agree to take all actions necessary
to obtain final approval of this SA and entry
of Final orders dismissing the New Class Action with prejudice and dismissing the Assigned Claims against HESI with prejudice,
and the Parties also agree to take all actions

R. App. 40
necessary and appropriate to obtain dismissal
of all other lawsuits that are pending and/
or may be filed against HESI that assert Released Claims, but only to the extent of the
Released Claims.
(c) Certification of the New Class is for settlement purposes only, and HESI, the PSC, and
New Class Counsel reserve all arguments for
and against certification of a litigation class.
16. Cooperation.
(a) HESI agrees to reasonably cooperate, and
shall cause its respective Affiliates, personnel,
employees, attorneys, agents and representatives to reasonably cooperate in seeking
approval of this SA and satisfaction of all conditions precedent to the occurrence of the Effective Date of this SA, regardless of whether
the Court enters an order that concludes that
the facts and evidence under applicable law
categorically do not give rise to any claims for
Punitive Damages against HESI. Nothing in
this paragraph shall be construed to waive, restrict or limit HESI’s rights provided under
this SA.
(b) The DHEPDS Class agrees not to settle Assigned Claims with Transocean unless, as
part of the settlement, Transocean agrees to a
full and final release of and covenant not to
sue the Halliburton Released Parties for any
claims for contribution or indemnity for any
amounts paid by Transocean as part of the
settlement. Further, before any such settlement is executed, the Halliburton Released

R. App. 41
Parties shall have the right to approve language memorializing the release contemplated in this paragraph, which approval
shall not be unreasonably withheld.
(c) Nothing in this SA prevents or restricts in any
way any person or party from fully and truthfully cooperating with any federal, state, local
or foreign government entity, including any
federal, state or local governmental, regulatory or self-regulatory agency, body, committee (Congressional or otherwise), commission,
or authority (including any governmental department, division, agency, bureau, office,
branch, court, arbitrator, commission, tribunal, Deepwater Horizon Task Force, or other
governmental instrumentality) (“Governmental Entity”), with respect to any investigation
or inquiry concerning or arising from the
Deepwater Horizon Incident.
17. Communications with the Public.
Upon filing of this SA, the PSC or New Class
Counsel, as applicable, DHEPDS Class Counsel,
or HESI may jointly or separately issue press releases announcing and describing this SA. The
form, content, and timing of the press releases
shall be subject to mutual agreement of DHEPDS
Class Counsel, the PSC or New Class Counsel, as
applicable, and HESI, which shall not be unreasonably withheld by any Party; provided that
HESI shall, in its sole discretion, be entitled to include such information as required by law or regulation. Communications by or on behalf of the
Parties and their respective counsel regarding this

R. App. 42
SA with the public and the media shall be made in
good faith, shall be consistent with the Parties’
agreement to take all actions reasonably necessary for preliminary and Final approval of this SA,
and the information contained in such communications shall be consistent with the content of any
notice under the Notice Program that may be approved by the Court in connection with the New
Class, if the Notice Program has been established.
Nothing herein is intended or shall be interpreted to inhibit or interfere with DHEPDS Class
Counsel’s ability to communicate with the Court,
DHEPDS Class Members, or their respective
counsel. Likewise, nothing herein is intended or
shall be interpreted to inhibit or interfere with the
PSC’s or New Class Counsel’s ability to communicate with the Court, Clients, New Class Members,
potential New Class Members, or their respective
counsel.
18. Notice of Proposed Class Action and SA.
(a) The Notice Program shall be as approved by
the Court to meet all applicable Fed. R. Civ. P.
23 notice requirements; will include individual mailed notice where practicable; and will
include a website and toll-free number.
(b) The PSC or New Class Counsel, as applicable,
will consult with HESI regarding the design
and execution of the Notice Program with respect to the New Class (including, without
limitation, issues such as claim deadlines,
manner of notice to the New Class, and creation of Opt Out forms sufficient for HESI to
determine its rights under Section 22(a)). If

R. App. 43
any dispute arises between HESI and the
PSC or New Class Counsel with respect to the
New Class Notice Program, the Court will resolve the matter consistently with the terms
of this SA.
(c) To conserve settlement and Administrative
Costs, the Parties agree, to the extent permissible by law, to execute the Notice Program
and claims administration process under this
SA in conjunction with the notice program
and claims administration process established as part of the Transocean Settlement.
The Parties agree that this coordination may
include a single class notice, a single Allocation Neutral, a single Claims Administrator,
and a single Settlement Fund (or eventual
consolidation of the Settlement Fund established under this SA and the Settlement Fund
established under the Transocean Settlement) for this SA and the Transocean Settlement. Nothing in this paragraph shall expand
the defined roles of HESI and/or Transocean
under this SA or the Transocean Settlement.
19. Final Orders Approving this SA and Dismissing the New Class Action and Assigned
Claims with Prejudice.
HESI, DHEPDS Class Counsel on behalf of the
DHEPDS Class, and the PSC, or New Class Counsel, as applicable, on behalf of the members of the
proposed New Class, will seek the following Final
orders of the Court:
(a) With respect to the New Class, a Final order
or Final orders that:

R. App. 44
i.

Confirm the class representatives of the
New Class and appointment of New Class
Counsel;

ii.

Certify the New Class for settlement purposes only;

iii. Approve the SA, including approval of
the allocation of the Aggregate Payment
between the DHEPDS Class for the Assigned Claims and the New Class for the
Punitive Damage Claims by the Allocation Neutral, as being fair, reasonable,
and adequate;
iv. Incorporate the terms of this SA and provide that the Court retains continuing
and exclusive jurisdiction over HESI, the
New Class Members, PSC, New Class
Counsel, and this SA to interpret, implement, administer and enforce the SA in
accordance with its terms;
v.

Find that the New Class Notice Program
satisfies the requirements set forth in
Fed. R. Civ. P. 23(c)(2)(B);

vi. Permanently bar and enjoin the New
Class and each New Class Member from
commencing, asserting, and/or prosecuting any and all New Class Released
Claims against any Halliburton Released
Party;
vii. Dismiss the New Class Action with prejudice;

R. App. 45
viii. Dismiss with prejudice all of the New
Class Released Claims asserted by the
New Class against the Halliburton Released Parties;
ix. Dismiss the lawsuits asserting New Class
Released Claims, but only to the extent
of the New Class Released Claims; and
include a prohibition against commencement or prosecution of any actions alleging New Class Released Claims;
x.

Adopt the interpretation as to the scope
of Robins Dry Dock in the Court’s Order
and Reasons [As to Motions to Dismiss
the B1 Master Complaint] (Rec. Doc.
#3830, 2:10-md-2179) (the “B1 Order”), by
finding that the New Class as defined and
described in sections 3 and 4 includes all
potential claimants who have standing to
bring claims under general maritime law
as interpreted by Robins Dry Dock v.
Flint, 275 U.S. 203 (1927), State of Louisiana ex. Rel. Guste v. M/V Testbank, 752
F.2d 1019 (5th Cir. 1985), and their progeny, and adopting the portion of the B1
Order dismissing claims under state law,
but not adopting the portion of the B1 Order addressing potential displacement of
maritime law by the Oil Pollution Act,
with the Parties reserving all of their arguments with respect to displacement of
maritime law;

R. App. 46
xi. Adopt the January 31, 2012 Order and Reasons, Rec. Doc. 5493, 2:10-md-2179, enforcing HESI’s indemnity rights against BP;
xii. Reaffirm that the terms of Exhibit 21 to
the DHEPDS regarding protections against
claims for compensatory damages against
HESI remain in effect with respect to
the DHEPDS Class and DHEPDS Class
Members;
xiii. Find that the HESI Release of BP that is
Attachment C to this SA meets any obligations the DHEPDS Class may owe to
BP under paragraph 1.1.2.5 of Exhibit
21 to the DHEPDS or any other obligation that the DHEPDS Class or DHPEDS
Class Counsel owes BP under the DHEPDS
with respect to this SA;
xiv. Acknowledge BP’s consent to the language of the HESI Release of BP that is
Attachment C to this SA or find that BP’s
withholding of consent under Exhibit 21
paragraph 1.1.2.5 of the DHEPDS is unreasonable and therefore BP is deemed to
have consented to the language of the release that is Attachment C to this SA.
(b) With respect to the DHEPDS Class, a Final
order or Final orders that:
i.

Approve the SA, including approval of
the allocation of the Aggregate Payment
between the DHEPDS Class for the Assigned Claims and the New Class for
the Punitive Damage Claims by the

R. App. 47
Allocation Neutral, as being fair, reasonable, and adequate;
ii.

Dismiss with prejudice all of the Assigned
Claims against the Halliburton Released
Parties;

iii. Adopt the interpretation as to the scope
of Robins Dry Dock in the Court’s Order
and Reasons [As to Motions to Dismiss
the B1 Master Complaint] (Rec. Doc.
#3830, 2:10-md-2179) (the “B1 Order”), by
finding that the New Class as defined and
described in sections 3 and 4 includes all
potential claimants who have standing to
bring claims under general maritime law
as interpreted by Robins Dry Dock v.
Flint, 275 U.S. 203 (1927), State of Louisiana ex. Rel. Guste v. M/V Testbank, 752
F.2d 1019 (5th Cir. 1985), and their progeny, and adopting the portion of the B1
Order dismissing claims under state law,
but not adopting the portion of the B1 Order addressing potential displacement of
maritime law by the Oil Pollution Act,
with the Parties reserving all of their arguments with respect to displacement of
maritime law;
iv. Adopt the January 31, 2012 Order and
Reasons, Rec. Doc. 5493, 2:10-md-2179 enforcing HESI’s indemnity rights against
BP;
v.

Incorporate the terms of this SA and
provide that the Court retains continuing and exclusive jurisdiction over the

R. App. 48
Parties, their respective counsel, and this
SA to interpret, implement, administer
and enforce the SA in accordance with its
terms;
vi. Reaffirm that the terms of Exhibit 21 to
the DHEPDS regarding protections against
claims for compensatory damages against
HESI remain in effect with respect to
the DHEPDS Class and DHEPDS Class
Members;
vii. Reaffirm that the Assigned Claims against
HESI assigned to the DHEPDS Class
were assigned to the DHEPDS Class
only as a juridical entity and not to the
DHEPDS Class Members individually
and that no individual DHEPDS Class
Member has any individual right to pursue the Assigned Claims.
viii. Permanently bar and enjoin the DHEPDS
Class and DHEPDS Class Members from
commencing, asserting, and/or prosecuting any and all Assigned Claims against
any Halliburton Released Party;
ix. Find that the HESI Release of BP that is
Attachment C to this SA meets any obligations the DHEPDS Class may owe to
BP under paragraph 1.1.2.5 of Exhibit
21 of the DHEPDS, or any other obligation, if any, that the DHEPDS Class or
DHEPDS Class Counsel owes BP under
the DHEPDS with respect to this SA;

R. App. 49
x.

Acknowledge BP’s consent to the language of the HESI release of BP that is
Attachment C to this SA or find that BP’s
withholding of consent under Exhibit 21
paragraph 1.1.2.5 of the DHEPDS is unreasonable and therefore BP is deemed to
have consented to the language of the release that is Attachment C to this SA.

(c) Upon the Effective Date of this SA, DHEPDS
Class Counsel and HESI will cooperate to
take any remaining actions needed to confirm
that dismissal with prejudice of any and all
Assigned Claims against Halliburton Released Parties in any action(s) filed by BP or
the DHEPDS is reflected in the appropriate
docket in which such action was filed.
20. Conditions Precedent to Finality of this SA.
HESI, DHEPDS Class Counsel on behalf of the
DHEPDS Class, and the PSC, or New Class Counsel, as applicable, on behalf of the members of the
proposed New Class, agree that the following are
conditions precedent to the finality of this SA, and
the “Effective Date” of this SA shall be the first day
on which all of the following have occurred:
(a) The “DHEPDS Effective Date,” as defined in
Section 5;
(b) The order described in Section 19(b) with respect to resolution of the Assigned Claims
against the Halliburton Released Parties under the terms and conditions of this SA has
become Final or a waiver of this condition
precedent, as described in Section 22(b) has

R. App. 50
been executed by DHEPDS Class Counsel and
HESI; and
(c) Either of the following orders has become Final:
i.

The order described in Section 19(a) with
respect to resolution of the New Class Action, or

ii.

An order concluding that the facts and evidence under applicable law categorically
do not give rise to any claims for Punitive
Damages against HESI.

21. Opt Outs.
(a) To validly exclude themselves from the New
Class, New Class Members must submit a
written request to opt out, which must be received by the Entity identified in the Notice
Program for that purpose, properly addressed,
and postmarked no later than a date to be
determined by the Court. A written request
to opt out may not be signed by any form of
electronic signature, but must be signed by
a handwritten signature. The PSC or New
Class Counsel, as applicable, New Class
Counsel and HESI will be provided with identifying information on Opt Outs on a weekly
basis, under a confidentiality order of the
Court, to enable them to determine the validity of Opt Outs or the applicability of Opt Out
held Property to the Opt Out thresholds referred to in Section 22(a), or in the case of the
PSC or New Class Counsel, as applicable, to
assist those who wish to revoke an Opt Out.

R. App. 51
All requests to opt out must be signed by the
Natural Person or Entity seeking to exclude
himself, herself or itself from the New Class.
Attorneys for such Natural Persons or Entities may submit a written request to opt out,
but they must still be signed by the Natural
Person or Entity.
(b) All New Class Members who do not timely
and properly opt out shall in all respects be
bound by all terms of this SA and the Final
order(s) with respect to the New Class contemplated herein, and shall be permanently
and forever barred from commencing, instituting, maintaining or prosecuting any action
based on any Released Claim against any of
the Halliburton Released Parties in any court
of law or equity, arbitration tribunal or administrative or other forum.
22. Termination of SA.
(a) At the written election of HESI, within fourteen calendar days after all Opt Out data has
been made available to HESI and the PSC or
New Class Counsel, as applicable, following
the expiration of the Opt Out deadline to be
established by the Court, HESI shall have the
right to terminate this SA in the event that
any of the Opt Out thresholds agreed to by the
Parties has been exceeded. The agreed thresholds shall be submitted in camera to the Court
and otherwise be kept confidential.
(b) At the written election of HESI, DHEPDS
Class Counsel, or the PSC or New Class Counsel, as applicable, this SA shall become null

R. App. 52
and void and shall have no further effect between and among HESI, the New Class members, the DHEPDS Class, and their respective
counsel in the event that:
i.

The Effective Date of this SA cannot occur; or

ii.

The Court declines to enter the order(s)
described in Section 19(b) or any such order(s) described in Section 19(b) fails to
become Final. However, the DHEPDS
Class Counsel and HESI upon mutual
written agreement may waive this provision and accept the order(s) of the Court
as entered and thus waive one or more of
the provisions of Section 19(b).

(c) Effect of Termination. In the event the SA is
terminated in whole or in part, neither this
SA nor any of the additional documentation
described in Section 13 shall be offered into
evidence or used in this or any other action for
any purpose other than effectuating and enforcing this SA with respect to any Parties between and among whom this SA remains in
effect, including, but not limited to, in support
of or opposition to the existence, certification
or maintenance of any purported class. If this
SA terminates, all funds including income of
any kind, less Administrative Costs then incurred, and then remaining in the Settlement
Fund, or in any other account holding funds
from the Aggregate Payment, will be returned
to HESI as soon as practicable; provided,
however, that the Claims Administrator and

R. App. 53
escrow agent of the Settlement Fund shall
have authority to pay any Administrative
Costs reasonably incurred in connection with
winding down the implementation of the SA.
Any such costs and costs of any termination
notice approved by the Court shall be deducted from the funds in the Settlement Fund
prior to any funds being returned to HESI. If
this SA terminates, the DHEPDS Class, the
PSC or the New Class Counsel, as applicable,
and HESI shall jointly move the Court to vacate any preliminary approval order entered
with respect to this SA and any of the orders
described in Section 19 if any such orders
have been entered.
23. Attorneys’ Fees and Costs.
(a) The PSC, DHEPDS Class Counsel, and HESI
did not have any fee discussion prior to August 28, 2014, after the Parties reached closure on the economic terms of this SA and
received permission from the Court to discuss
fees. The Parties’ agreement set forth herein
regarding fees and costs and the fee vesting
schedule is subject to approval by the Court.
In no event will HESI be obligated to pay
more in attorneys’ fees and costs than the
amount agreed to, and pursuant to the fee
vesting schedule agreed to, by HESI, the PSC
and DHEPDS Class Counsel.
(b) HESI agrees not to contest any request by the
DHEPDS Class Counsel and the PSC, or New
Class Counsel, as appropriate (collectively,
the “Class Counsel”) for, nor oppose an award

R. App. 54
by the Court for, a maximum award of ninetynine million nine hundred and fifty thousand
U.S. dollars (U.S. $99,950,000), as a payment
of all common benefit and/or Fed R. Civ. P.
23(h) attorneys’ fees and costs incurred at any
time, whether before or after the date hereof,
for the common benefit of members of the
DHEPDS Class and the New Class, with respect to the Released Claims. Class Counsel
agrees not to request an award of common
benefit and/or Fed. R. Civ. P. 23(h) attorneys’
fees and costs greater than ninety-nine million nine hundred and fifty thousand U.S. dollars (U.S. $99,950,000). If the Court awards
less than the amount set out in this Section
23(b), HESI shall be liable only for the lesser
amount awarded by the Court. The common
benefit and/or Rule 23(h) attorneys’ fees, costs
and expenses awarded by the Court, subject
to the limitations in the preceding sentence,
shall be collectively referred to as the “Common Benefit Fee and Costs Award.”
(c) The Parties shall establish with Court approval a sub-fund within the Settlement Fund
to receive all payments of attorneys’ fees and
costs (“Attorneys’ Fee Account”).
(d) HESI shall make Common Benefit Fee and
Costs Award payments into the Settlement
Fund Attorneys’ Fee Account as follows:
i.

An initial payment of thirty three million
three hundred and fifty thousand U.S.
dollars (U.S. $33,350,000) (the “Initial

R. App. 55
Payment”) within 30 days after the filing
of the SA with the Court; and
ii.

A payment of thirty three million three
hundred thousand U.S. dollars (U.S.
$33,300,000) within 30 days after the
Court’s order(s) approving the Allocation
Special Master’s allocation (the “Second
Payment”); and

iii. A final payment of the amount of the
Common Benefit Fee and Costs Award
approved by the Court, less the Initial
Payment and Second Payment, but not to
exceed an additional payment of thirty
three million three hundred thousand
U.S. dollars (U.S. $33,300,000) within 15
days of the Effective Date.
iv. At any time after the Initial Payment,
Class Counsel may petition the Court for
reimbursement of common-benefit litigation costs and/or expenses, and payment
of reasonable costs and expenses incurred
in the approval process and implementation of the SA. Such payments are to be
funded from the Initial Payment and
HESI shall have no right of reversion, recapture, or return of such Court-approved
payments.
v.

If the SA is terminated under Section 22,
any funds remaining in the Attorneys’
Fee Account held by the Settlement
Fund or otherwise in the Settlement
Fund shall revert to HESI, minus any

R. App. 56
Court-approved payment of costs and/or
expenses under 23(c)(iv).
vi. Upon the full payment of the Common
Benefit Fee and Costs Award, HESI shall
be immediately and fully discharged from
any and all further liability or obligation
whatsoever with respect to any and all
common benefit and/or Rule 23(h) attorneys’ fees, costs and expenses incurred by
or on behalf of the DHEPDS Class or the
New Class, or any member thereof, in respect of, or relating in any way to, directly
or indirectly, any and all Released
Claims.
vii. HESI and Class Counsel agree to request,
and will not contest or oppose, that the order approving the Common Benefit Fee
and Costs Award will include the language set forth in this Section 23.
viii. Neither HESI nor any of the Halliburton
Released Parties shall have any responsibility, obligation or liability of any kind
whatsoever with respect to how the Common Benefit Fee and Costs Award is allocated and distributed, which allocation
and distribution is the sole province of the
Court.
24. Notice.
Written Notice to the PSC, for itself and on behalf
of the New Class, and to the DHEPDS Class must
be given to Stephen J. Herman, Herman, Herman
& Katz, 820 O’Keefe Avenue, New Orleans, LA

R. App. 57
70113, Sherman@hhklawfirm.com, and James P.
Roy, Domengeaux Wright Roy & Edwards, 556 Jefferson Street, Lafayette, LA 70502, jimr@wrightroy.
com. Written notice to HESI must be given to Robb
L. Voyles, Executive Vice President and General
Counsel, Halliburton Company, 3000 N. Sam Houston Parkway East, Houston, TX 77032, robb.
voyles@halliburton.com. All notices required by
the SA shall be sent by overnight delivery and
electronic mail.
25. Other Provisions.
(a) The Court shall have continuing and exclusive jurisdiction to interpret, administer,
implement, and enforce this SA, including
through injunctive or declaratory relief.
(b) HESI and the PSC have not waived and expressly retain their rights to appeal any prior
or subsequent order of the Court regarding
HESI’s potential exposure for claims that are
not resolved by this SA, (including, for example, arguments or defenses regarding a finding of negligence, gross negligence, or other
degree of fault, the availability of and/or evidentiary basis for any form of damages under
the general maritime law, the potential displacement of general maritime law by the Oil
Pollution Act of 1990, or damages available
under the Oil Pollution Act of 1990), or BP’s
indemnity obligations to HESI (excluding indemnity for the Aggregate Payment, attorney
fees and costs paid by HESI under this SA).
Such appeals or arguments shall not alter
any rights held by the DHEPDS Class (as the

R. App. 58
owner of the Assigned Claims), the New Class
or any New Class Member, but may impact
any claims falling outside this SA, and only
claims falling outside this SA.
(c) Notwithstanding the law applicable to the
underlying claims, which the Parties dispute,
this SA shall be interpreted in accord with
general maritime law as well as in a manner
intended to be consistent with the Oil Pollution Act of 1990.
(d) The use of environmental data (including
SCAT data) as part of this SA shall not constitute an admission or judicial determination
related to the admissibility or interpretation
of such data for any other purpose.
(e) In the event any confidential documentation
is provided by or on behalf of the Parties in
the course of the settlement process, the Parties and their counsel agree that all such
documentation shall be preserved until after
performance of all terms of the SA is completed, and the use of such documentation
shall be governed by the following pretrial
orders entered in the MDL: Pretrial Order
No. 13, Order Protecting Confidentiality; Pretrial Order No. 38, Order Relating to Confidentiality of Settlement Communications;
and Pretrial Order No. 47, Order Regarding
Designation of Documents as “Confidential”
or “Highly Confidential.” The Parties shall
continue to treat documents in conformity
with the requirements of the confidentiality
requirements of the foregoing pretrial orders.

R. App. 59
(f ) The waiver by any Party of any breach of this
SA by another Party shall not be deemed or
construed as a waiver of any other breach of
this SA, whether prior, subsequent, or contemporaneous.
(g) This SA shall be deemed to have been mutually prepared by the Parties and shall not be
construed against any of them by reason of
authorship.
(h) This SA may be executed in counterparts, and
a facsimile signature shall be deemed an original signature for purposes of this SA.
(i)

No representations, warranties or inducements have been made to any Party concerning the SA or its attachments other than the
representations and warranties contained
and memorialized in such documents and the
SA.

(j)

The headings herein are used for the purpose
of convenience only and are not meant to have
legal effect.

(k) This SA shall be binding upon and inure to
the benefit of the successors and assigns of the
Parties.
(l)

DHEPDS Class Counsel on behalf of the
DHEPDS Class represents and warrants that
the DHEPDS Class has not assigned or otherwise conveyed all or any part of the Assigned
Claims against HESI.

R. App. 60
26. Tolling of Statute of Limitations
Upon filing of this SA with the Court, the statutes
of limitation applicable to the Assigned Claims
against the Halliburton Released Parties and to
any and all claims or causes of action that have
been or could be asserted by or on behalf of any
New Class Member are hereby tolled and stayed.
The limitations period shall not begin to run again
for any New Class Member unless and until (a) he,
she, or it opts out of the New Class, or (b) this SA
is terminated pursuant to Court order or otherwise. The limitations period shall not begin to run
again for the DHEPDS Class for the Assigned
Claims against the Halliburton Released Parties
unless and until this SA is terminated pursuant to
Court order or otherwise. In the event this SA is
terminated pursuant to Court order or otherwise,
the limitations period for each New Class Member
as to whom the limitations period had not expired
as of the date of the filing of this SA with the Court
shall extend for the longer of 90 days from the last
required issuance of notice of termination or the
period otherwise remaining before expiration, and
the limitations period for the DHEPDS Class with
respect to the Assigned Claims shall extend for
the longer of 90 days from the date of notice to
DHEPDS Class Counsel of termination of this
SA or the period otherwise remaining before expiration. Notwithstanding the temporary tolling
agreement herein, the Parties recognize that any
time already elapsed for any New Class Members
or for the DHEPDS Class on any applicable statutes of limitations shall not be reset, and no expired claims shall be revived, by virtue of this
temporary tolling agreement. New Class Members

R. App. 61
and the DHEPDS Class do not admit, by entering
into this SA, that they have waived any applicable
tolling protections available as a matter of law or
equity. Nothing in this SA shall constitute an admission in any manner that the statute of limitations has been tolled for anyone other than the
DHEPDS Class, New Class, and New Class Members, nor does anything in this SA constitute a
waiver of legal positions regarding tolling.
27. Representations and Warranties Regarding
Authority.
(a) Pursuant to PTO 8, the PSC has explored settlement opportunities with HESI and pursuant to such authority, with approval of the
PSC, Co-Liaison Counsel have been given the
authority to execute this SA on behalf of the
putative New Class. This SA has been duly
and validly executed and delivered by the
PSC, and constitutes a legal, valid and binding obligation of the New Class.
(b) DHEPDS Class Counsel on behalf of the
DHEPDS Class represents and warrants that
they have authority to enter into this SA on
behalf of the DHEPDS Class. This SA has
been duly and validly executed and delivered
by DHEPDS Class Counsel, and constitutes
a legal, valid and binding obligation of the
DHEPDS Class, subject to Court approval.
(c) HESI represents and warrants that it has all
requisite corporate power and authority to
execute, deliver and perform this SA. The execution, delivery, and performance by HESI
of this SA has been duly authorized by all

R. App. 62
necessary corporate action. This SA has been
duly and validly executed and delivered by
HESI, and constitutes its legal, valid and
binding obligation, subject to Court approval.
Halliburton Energy Services, Inc.
By: /s/ Robb L. Voyles
Name: Robb L. Voyles
Title: Executive Vice President and General Counsel
Halliburton Company
By: /s/ Robb L. Voyles
Name: Robb L. Voyles
Title: Executive Vice President and General Counsel
PLAINTIFFS’ CO-LIAISON COUNSEL (For the PSC)
By: /s/ James Parkerson Roy
Name: James Parkerson Roy
By: /s/ Stephen J. Herman
Name: Stephen J. Herman
DHEPDS CO-LEAD Class Counsel
By: /s/ James Parkerson Roy
Name: James Parkerson Roy
By: /s/ Stephen J. Herman
Name: Stephen J. Herman
[Attachments Omitted]

